APPENDIX A

United States v. Peña, 963 F.3d 1016 (2020)

963 F.3d 1016
United States Court of Appeals, Tenth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Tommy PEÑA, Defendant - Appellant.
No. 19-2050
|
FILED June 24, 2020

defendant's original sentence under
Johnson v. United
States and acquittal on two of counts resulted in “windfall”;
[7] sentence was not rendered substantively unreasonable
based on defendant's assertion that district court discounted
fact that he was 33 years old at time of resentencing and that
he would be less likely to recidivate by time he was released;
and
[8] district court provided adequate compelling reasons for
imposing upward variance sentence.

Synopsis
Background: Following vacatur under
Johnson v. United
States of original aggregate sentence of 480 months for
possession of firearm by convicted felon, using or carrying
firearm during and in relation to crime of violence, carjacking,
and related conspiracy, defendant was resentenced in the
United States District Court for the District of New Mexico,
William P. Johnson, Chief Judge, 2018 WL 6003538, and he
appealed.

Affirmed.
Procedural Posture(s): Appellate Review.
West Headnotes (26)
[1]

[1] aggregate sentence of 360 months was procedurally
reasonable;
[2] sentence was not rendered substantively unreasonable
based on defendant's assertions that his conduct was not as
egregious as codefendant's and that he had fired his weapon
over roof of car, and not into it;

claims in district court.
924(c),

[2]

[6] sentence was not rendered substantively unreasonable
based on district court's alleged findings that vacatur of

18 U.S.C.A. §§

3553(a).

Criminal Law
General

Necessity of Objections in

Under the “plain error” standard, the Court of
Appeals will vacate a sentence only if: (1) there is
error, (2) that is plain; (3) that affects substantial
rights, or in other words, affects the outcome of
the proceeding; and (4) substantially affects the
fairness, integrity, or public reputation of judicial
proceedings.

[4] sentence was not rendered substantively unreasonable
based on sentencing disparity with codefendant who received
sentence of 36 months;
[5] sentence was not rendered substantively unreasonable
based on defendant's assertions that he was punished for going
to trial;

Sentencing and Punishment

Defendant's claims that district court failed
to consider all statutory sentencing factors in
sentencing on multiple convictions using and
carrying firearm during and in relation to crime
of violence, and that it improperly compared
him with class of other offenders who had prior
convictions for that offense, was reviewable for
plain error, given defendant's failure to raise

Holdings: The Court of Appeals, Seymour, Senior Circuit
Judge, held that:

[3] sentence was not rendered substantively unreasonable
based on defendant's assertion that district court failed
to adequately consider all relevant information regarding
postconviction conduct;

Criminal Law

[3]

Criminal Law
General

Necessity of Objections in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Peña, 963 F.3d 1016 (2020)

An error is “plain,” for purposes of “plain error”
review, if it is clear or obvious under current,
“well-settled law,” and in this context, for an
error to be contrary to well-settled law, either
the Supreme Court or the Court of Appeals must
have addressed the issue.

[4]

Criminal Law

[7]

Sentencing and Punishment

Burden of showing error

Sentencing and Punishment
Related to Offender

Factors

Where the court explicitly considers a
defendant's history and characteristics, in
accordance with statutory sentencing factors,
there is no procedural error in sentencing.
U.S.C.A. § 3553(a)(1).

[6]

18

was acquitted of that charge.
924(c).

Sentencing and Punishment
effect of report

Use and

Sentencing and Punishment

Sufficiency

Aggregate sentence of 360 months for
possession of firearm by convicted felon, using
and carrying firearm during and relation to
crime of violence, and other crimes was
procedurally reasonable, despite defendant's
assertions that district court considered only
his criminal conduct and history and failed to
consider mitigating factors such as his childhood
circumstances, history of methamphetamine use,
and prescription for anti-depressant medication;
district court considered defendant's history and
characteristics, and it found that defendant's
evidence in mitigation that was included
in presentence investigation report did not
outweigh nature of his adult criminal convictions
for violent offenses involving firearms, his
juvenile conduct involving firearms use, and his
post-conviction conduct involving possession of
dangerous weapons while incarcerated.
U.S.C.A. § 3553(a).

18

Sufficiency

Aggregate sentence for possession of firearm
by convicted felon, using or carrying firearm
during and in relation to crime of violence,
and other offenses was procedurally reasonable,
despite defendant's assertion that district court
erroneously believed that, had dismissed charges
arising out of drive-by shooting and car theft
been prosecuted, he would have been subject
to mandatory minimum sentence of 25 years;
rather, district court explicitly stated that it was
not basing defendant's sentence for possession of
firearm by convicted felon arising out of driveby shooting and theft on possibility of sentences
for uncharged conduct or acquitted conduct, and
although he had been charged with using or
carrying firearm arising out of that incident, he

The party alleging plain error has the burden of
establishing the four elements of plain error.

[5]

Sentencing and Punishment
Arrests,
charges, or unadjudicated misconduct

[8]

Criminal Law

18 U.S.C.A. §

Sentencing

The Court of Appeals reviews for abuse
of discretion a claim that a sentence was
substantively unreasonable.
1 Cases that cite this headnote
[9]

Criminal Law

Sentencing

In reviewing for an abuse of discretion
a challenge to a sentence as substantively
unreasonable, the Court of Appeals gives
substantial deference to the district court
and will only overturn a sentence that is
arbitrary, capricious, whimsical, or manifestly
unreasonable.
2 Cases that cite this headnote
[10]

Criminal Law

Sentencing

In reviewing for an abuse of discretion
a challenge to a sentence as substantively
unreasonable, the Court of Appeals should not

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Peña, 963 F.3d 1016 (2020)

just provide a rubber stamp of approval to the
lower court's sentence.

[11]

Criminal Law

convictions placed any number of innocent
bystanders in danger.

[14]

Sentencing

Extent of

Substantive reasonableness of a sentence
involves whether the length of the sentence is
reasonable given all the circumstances of the
case in light of the statutory sentencing factors.

[15]

Sentencing and Punishment
offender's participation

Extent of

Sentencing and Punishment
public or bystanders

Endangering

Sentencing and Punishment
sentence deemed not excessive

Total

Aggregate sentence of 360 months for
possession of firearm by convicted felon, using
or carrying firearm during and in relation
to crime of violence, carjacking, and related
conspiracy was not rendered substantively
unreasonable based on defendant's assertions
that his conduct was not as egregious as
codefendant's and that he fired his weapon over
roof of car, and not into it; although codefendant
was one who pointed gun at pregnant occupant
of residence and at child, defendant had pointed
gun at her husband in order to gain entry into
house, there was no real dispute as to serious
and potentially dangerous threat to innocent life
posed by firing gun from window of car and
shooting over roof of other car, and conduct in
separate incident that gave rise to one of firearm

Criminal Law

Sentencing

In reviewing a challenge to a sentence as
substantively unreasonable, the Court of Appeals
will not challenge the district court's evaluation
of the witnesses' credibility and probative value
of the evidence, unless it finds no support in
the record, deviates from the appropriate legal
standard, or follows from a plainly implausible,
irrational, or erroneous reading of the record.

18 U.S.C.A. § 3553(a).

[13]

Questions of

The district court has the role of factfinder
at sentencing, and in reviewing a challenge to
a sentence as substantively unreasonable, the
Court of Appeals defers to the district court's
judgment because of its first-hand ability to view
the witness or evidence and assess credibility and
probative value.

1 Cases that cite this headnote
Sentencing and Punishment
Punishment in General

Sentencing

Sentencing and Punishment
law or fact

In reviewing for an abuse of discretion
a challenge to a sentence as substantively
unreasonable, the Court of Appeals must
determine if the district court's proffered
rationale, on aggregate, justifies the magnitude
of the sentence.

[12]

Criminal Law

1 Cases that cite this headnote
[16]

Sentencing and Punishment
Nature,
degree, or seriousness of other misconduct
Sentencing and
Punishment
Dangerousness
Sentencing and Punishment
sentence deemed not excessive

Total

Aggregate sentence of 360 months for
possession of firearm by convicted felon, using
or carrying firearm during and in relation
to crime of violence, and other offenses
was not rendered substantively unreasonable
based on defendant's assertion that district
court failed to adequately consider all relevant
information regarding postconviction conduct;
senior intelligence analyst for Bureau of
Prisons testified as to classification of prison
offenses, with 100 series of offenses being
most dangerous, while incarcerated, defendant
was found guilty of multiple 104 infractions

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Peña, 963 F.3d 1016 (2020)

for possessing dangerous weapon, resulting in
transfer to segregated housing unit, upon return
to general population, he received two additional
104 violations for same infraction, and such
evidence supported finding that defendant was
determined to possess dangerous weapons and
would continue to do so.

[17]

[20]

Purpose

In assessing a sentence, a district court may
consider sentencing disparities between codefendants, but the purpose of the Sentencing
Guidelines is not to eliminate disparities among
co-defendants, but rather to eliminate disparities
among sentences nationwide.

[18]

Sentencing and Punishment
disparate treatment of offenders

Uniform and

Consideration of unwarranted sentence
disparities is but one factor that a district
court must balance against the other statutory
sentencing factors in arriving at an appropriate
sentence.

[19]

18 U.S.C.A. § 3553(a)(6).

Sentencing and Punishment
Sentence or
disposition of co-participant or codefendant
Sentencing and Punishment
sentence deemed not excessive

Total

Aggregate sentence of 360 months for
possession of firearm by convicted felon, using
or carrying firearm during and in relation to
crime of violence, and other offenses was
not rendered substantively unreasonable based
on sentencing disparity when compared to
codefendant, who received sentence of 36
months, where codefendant cooperated with
government, he entered into plea agreement,
he testified against defendant, he accepted
responsibility, and he demonstrated commitment
to reforming his behavior.
3553(a)(6).

18 U.S.C.A. §

Right to

Sentencing and Punishment
sentence deemed not excessive

Total

Aggregate sentence of 360 months for
possession of firearm by convicted felon, using
or carrying firearm during and in relation
to crime of violence, carjacking, and related
conspiracy was not rendered substantively
unreasonable based on defendant's assertions
that he was punished for going to trial, that
he had exercised his right to trial only to
challenge government's position that his conduct
violated carjacking statute, and that he should
have received reduction because he had accepted
responsibility; although his decision to go to trial
was not frivolous, given dismissal of carjacking
charge based on finding that charged conduct did
not satisfy elements of statute, defendant went
to trial on all counts of indictment, and he did
not stipulate to any elements for any of counts.

Sentencing and Punishment
Sentence or
disposition of co-participant or codefendant
Sentencing and Punishment

Sentencing and Punishment
stand trial

U.S.S.G. § 3E1.1.

[21]

Sentencing and Punishment
Arrests,
charges, or unadjudicated misconduct
Sentencing and Punishment
sentence deemed not excessive

Total

Aggregate upward variance sentence of 360
months for possession of firearm by convicted
felon, using or carrying firearm during
and in relation to crime of violence, and
other offenses was not rendered substantively
unreasonable based on district court's finding
that vacatur of defendant's original 480-month
under
Johnson v. United States significantly
reduced defendant's exposure at resentencing
and that acquittal on two of counts arising
out of one of four crimes committed resulted
in “windfall,” where district court clarified
that it did not consider charges on acquitted
crimes when it imposed sentence, and it only
mentioned defendant's acquitted conduct for
purpose of comparing him to other similarly
situated defendants.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Peña, 963 F.3d 1016 (2020)

that the justification is sufficiently compelling to
support the degree of the variance.
[22]

Sentencing and Punishment

Age

Sentencing and Punishment
sentence deemed not excessive

Total

Aggregate upward variance sentence of 360
months for possession of firearm by convicted
felon, using or carrying firearm during
and in relation to crime of violence, and
other offenses was not rendered substantively
unreasonable, based on defendant's assertion
that district court discounted fact that he was
33 years old at time of resentencing and
that, even under within-guidelines sentence
he would be less likely to recidivate by
time he was released, where study defendant
introduced in support of his claim showed
that recidivism rate increased among older
federal offenders where offender had committed
crimes involving firearms, and defendant's
post-conviction conduct that involved multiple
infractions based on possession of dangerous
weapons showed lack of effort to even attempt to
reform his behavior.

[23]

Sentencing and Punishment

Criminal Law

Application of guidelines

On review of a sentence outside the Guidelines
range, the Court of Appeals must give due
deference to the district court's decision that the
statutory sentencing factors, on a whole, justify
the extent of the variance.
3553(a).

18 U.S.C.A. §

1 Cases that cite this headnote
[26]

Sentencing and Punishment
with dispositions in other cases

Comparison

Consideration of upward variance sentences
imposed in other cases are useful in providing
guidance in how to satisfy the Tenth
Circuit review of procedural and substantive
reasonableness of a sentence, but the cases do
not restrict a district court's ability to impose an
upward sentence only where specific facts are
present.

Sufficiency

District court provided adequate compelling
reasons for imposing upward variance sentence
of 360 months possession of firearm by
convicted felon, using or carrying firearm during
and in relation to crime of violence, and other
offenses, in view of evidence that, in each of four
instances that gave rise to charges, defendant
had brandished firearm, and that he had actually
fired weapon during two of incidents, which
endangered safety of public, and district court
addressed each of statutory sentencing factors.
18 U.S.C.A. § 3553(a).

[24]

[25]

Sentencing and Punishment
Operation
and effect of guidelines in general
If the district court decides that an outsideGuidelines sentence is warranted, it must
consider the extent of the deviation and ensure

*1020 Appeal from the United States District Court for
the District of New Mexico (D.C. No. 2:10-CR-2138-WJ-2)
Attorneys and Law Firms
Stephanie Wolf, Assistant Federal Public Defender (Stephen
P. McCue, Federal Public Defender, and Jane Greek, Assistant
Federal Public Defender, with her on the briefs), Las Cruces,
New Mexico, for Defendant-Appellant.
Marisa A. Ong, Assistant United States Attorney (John C.
Anderson, United States Attorney, with her on the brief), Las
Cruces, New Mexico, for Plaintiff-Appellee.
Before TYMKOVICH, Chief Judge, SEYMOUR and
MORITZ, Circuit Judges.
Opinion
SEYMOUR, Circuit Judge.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Peña, 963 F.3d 1016 (2020)

*1021 Tommy Peña was convicted in the United States
District Court for the District of New Mexico of conspiracy
to commit a carjacking in violation of 18 U.S.C. §§ 371 &
2119, carjacking and aiding and abetting in violation of 18
U.S.C. § 2 &

2119, using and carrying a firearm during

and in relation to a crime of violence in violation of
18
U.S.C. § 924(c)(1)(A)(i), possession of methamphetamine in
violation of
21 U.S.C. § 844(a), and four counts of felon
in possession of a firearm and/or ammunition in violation of
18 U.S.C. §§ 922(g)(1) & 924(a)(2). For these offenses,
the district court initially sentenced Mr. Peña to 480 months.
However, after the Supreme Court's decision in
Johnson
v. United States, ––– U.S. ––––, 135 S.Ct. 2551, 192 L.Ed.2d
569 (2015), Mr. Peña no longer qualified for a sentence
enhancement under
18 U.S.C. § 924(e). At resentencing,
the district court imposed a 360-month sentence, varying
upward from the guidelines. Mr. Peña appeals his sentence,

Mr. Peña and Mr. Conde with an ounce of methamphetamine
for assisting her.
When the three of them went to the Lacey household, Mr.
Peña carried a loaded handgun while Mr. Conde carried a
firearm with bullets in the clip but not the chamber. When
Mr. Lacey opened the door, Mr. Peña pointed his gun at him
and Mr. Conde pointed his gun at both Ms. Lacey, who was
nine months pregnant, and one of the Laceys’ children. After
Mr. Lacey fled, Mr. Peña and Mr. Conde ransacked the house.
Mr. Peña then took the keys to Mr. Lacey's car and drove
away. The district court found Mr. Peña guilty of four counts
related to the Lacey incident, conspiracy to commit carjacking
in violation of 18 U.S.C. §§ 371 &

aiding and abetting in violation of 18 U.S.C. §§ 2 &

1

2

BACKGROUND
Following a bench trial in December 2010, Tommy Peña was
convicted in federal court. His conviction was based upon
his conduct in four incidents that occurred in April 2010:
the Lacey carjacking incident on April 6, 2010; the drive-by
shooting on April 10, 2010; the Luna vehicle theft on April
18, 2010; and the car chase and defendant's subsequent arrest
on April 19, 2010.

18 U.S.C. § 924(c)(1)(A)(i). 2

Although the district court found that Mr.
Peña brandished the firearm during the Lacey
incident, the indictment charged him only with
possessing the firearm in furtherance of a crime of
violence under

18 U.S.C. § 924(c)(1)(A)(i), not

brandishing it during the offense under
(1)(A)(ii). Rec, vol. I at 592.

1. Lacey Carjacking Incident
Mr. Peña and his co-defendant, Jeremy Conde, were hired by
Isabel Saucedo to retrieve cash from the household of Arthur
Lacey because Ms. Saucedo believed Mr. Lacey had stolen
the cash from her. If they could not retrieve the cash, Ms.
Saucedo agreed that they could take Mr. Lacey's car that he
allegedly purchased with the cash. Ms. Saucedo offered to pay

§ 924(c)

*1022 2. Drive-By Shooting Incident
On April 10, 2010, Mr. Peña and Mr. Conde were driving
when a group of people standing in front of an apartment
building shot at them and hit Mr. Conde. Both Mr. Peña
and Mr. Conde returned shots, with Mr. Peña reaching out
of the passenger window and shooting over the roof of the
car. For Mr. Peña's involvement in the drive-by shooting, the
district court found him guilty of being a felon in possession
of a firearm in violation of

A. Sentencing

18

U.S.C. §§ 922(g)(1) &
924(a)(2), and using and carrying
a firearm during and in relation to a crime of violence in
violation of

I.

2119,

being a felon in possession of a firearm in violation of

and we affirm. 1
We also grant the government's March 12, 2020
motion to supplement the record with Mr. Peña's
Presentence Investigation Report.

2119, carjacking and

18 U.S.C. §§ 922(g)(1) &

924(a).
3. Luna Vehicle Theft
On April 18, 2010, when Fred Luna drove past the home
where Mr. Peña was staying, Mr. Peña and Mr. Conde
perceived him to be “mad dogging” them by giving them a
“hard look.” Rec, vol. I at 312–13. Armed with handguns,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Peña, 963 F.3d 1016 (2020)

they followed Mr. Luna. He pulled into a church parking lot
and got out of his truck, leaving the door open and ignition
running. When Mr. Peña and Mr. Conde pulled into the church
parking lot and pointed their guns at Mr. Luna, he ran from his
vehicle and attempted to enter the church, but it was locked.
Mr. Conde got into Mr. Luna's truck and began to drive it.
Planning to stop Mr. Conde and Mr. Peña from taking his
truck, Mr. Luna started to run toward the truck but decided
that it was not worth the risk. Mr. Conde and Mr. Peña drove
Mr. Luna's truck to an abandoned house, removed the stereo
and speakers, wiped the truck down, and then left it.
For the Luna incident, the district court found Mr. Peña guilty
of one count of being a felon in possession of a firearm in
violation of 18 U.S.C. §§ 922(g)(1) & 924(a). Although
Mr. Peña was also charged with carjacking, conspiracy to
commit carjacking, and using and carrying a firearm during
and in relation to a crime of violence, the district court
determined he was not sufficiently near his truck at the time he
formed the intent to steal it. Because no carjacking occurred,
Mr. Peña also could not be found guilty of aiding and abetting
a carjacking, conspiracy to commit carjacking, or using and
carrying a firearm during the incident, and he was therefore
acquitted of those charges.

B. Resentencing
After the Supreme Court's decision in
Johnson v. United
States, ––– U.S. ––––, 135 S.Ct. 2551, 192 L.Ed.2d 569
(2015), Mr. Peña no longer qualified for an enhanced sentence
under the ACCA. In
Johnson, the Supreme Court held
that the residual clause of the ACCA was unconstitutionally
vague and therefore could not be a basis for imposing harsher
penalties.
Id. at 2557. The district court determined that
because *1023 Mr. Peña's prior conviction for shooting at
a dwelling or occupied building was based upon the residual
clause, he was entitled to resentencing.
In 2018, after extensive briefing by the parties, testimony
at the resentencing hearing, and oral argument, the district
court assessed a new sentencing range of 63–78 months under
the 2016 guidelines, based on an offense level of 22 and a
criminal history category IV. With the § 924(c) mandatory
minimum of 60 months, the total adjusted range was 123–
138 months’ imprisonment. The United States requested an
upward variance to a 30-year, or 360-month, sentence. The
district court agreed and provided a detailed justification for
imposing the 30 year sentence. Mr. Peña appeals, contending
the sentence is procedurally and substantively unreasonable.

4. Car chase and Mr. Peña's arrest
On April 19, 2010, Mr. Peña was the passenger in a car that
failed to pull over when a Roswell police officer activated
his emergency lights. A chase ensued, the car was wrecked,
and Mr. Peña fled on foot. He was subsequently stopped
and arrested. He was found in possession of two firearms,
almost one hundred rounds of ammunition, and 6.4 grams
of methamphetamine. Accordingly, Mr. Peña was convicted
of one count of being a felon in possession of a firearm

consider all the 18 U.S.C. § 3553(a) factors and improperly
compared Mr. Peña with the class of offenders who have

in violation of
18 U.S.C. §§ 922(g)(1) &
924(a) and
one count of possession of methamphetamine in violation of

previous
§ 924(c) convictions. Because Mr. Peña did not
raise his procedural error claim below, we review for plain

21 U.S.C. § 844(a).
In 2011, the district court sentenced Mr. Peña to 480 months’
imprisonment for his convictions arising out of the four
incidents. At the time, Mr. Peña was subject to an enhanced
sentence under the Armed Career Criminal Act (ACCA),
18 U.S.C. § 924(e), and his 480-month sentence was
within the United States Sentencing Guidelines range of 360
months to life under the 2010 version of the guidelines.

II.
PROCEDURAL REASONABLENESS
[1]

[2]

[3]

[4] Mr. Peña contends the court failed to

error.
United States v. Lopez-Flores, 444 F.3d 1218, 1221
(10th Cir. 2006). Under the plain error standard, we will
vacate a sentence only if: “(1) there is error, (2) that is
plain; (3) that affects substantial rights, or in other words,
affects the outcome of the proceeding; and (4) substantially
affects the fairness, integrity, or public reputation of judicial
proceedings.” United States v. Chavez, 723 F.3d 1226, 1232
(10th Cir. 2013). “An error is plain if it is clear or obvious
under current, well-settled law. In general, for an error to
be contrary to well-settled law, either the Supreme Court or

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Peña, 963 F.3d 1016 (2020)

this court must have addressed the issue.”
United States v.
DeChristopher, 695 F.3d 1082, 1091 (10th Cir. 2012) (citation
omitted). Mr. Peña has the burden of establishing the four
elements of plain error. See United States v. Hall, 625 F.3d
673, 684 (10th Cir. 2010).
[5] Mr. Peña first asserts that during his resentencing the
district court erred by not considering all of the information
required by
18 U.S.C § 3553. He argues that the
district court only considered his criminal conduct and
history and failed to consider mitigating factors such as
his childhood circumstances, history of methamphetamine
use, and prescription for anti-depressant medication. When
assessing a sentence, district courts must consider “the
nature and circumstances of the offense and the history and
characteristics of the defendant.”
18 U.S.C. § 3553(a)(1).
Where the court explicitly considers a defendant's history and
characteristics, there is no procedural error. See United States
v. Alapizco-Valenzuela, 546 F.3d 1208, 1222 (10th Cir. 2008).
[6] Here, the district court thoroughly discussed Mr.
Peña's history and characteristics but did “not find Pena's
arguments or his evidence persuasive enough to outweigh
the substantial weight the Court assign[ed] to the nature of
his adult criminal convictions for violent offenses involving
firearms, his juvenile conduct involving firearms use, and his
post-conviction conduct involving possession of dangerous
weapons while incarcerated.” United States v. Peña, 2018
WL 6003538, at *7 (D.N.M. Nov. 15, 2018). The court also
reviewed Mr. Peña's presentence report, which includes the
mitigating factors Mr. Peña raises on appeal. We therefore
find no support for Mr. Peña's claim that the district court
erred by not considering all of the

§ 3553(a) factors.

*1024 [7] Mr. Peña next contends the district court
erroneously compared him with offenders subject to
3

mandatory minimum sentences under
§ 924(c). He
asserts the court incorrectly believed that he would have been
subject to “two additional consecutive 25-year sentences”
if the drive-by shooting and the Luna car theft could have
been prosecuted as federal offenses. Aplt. Br. at 18. But Mr.
Peña misconstrues the district court's statement. The court
explicitly stated that it was not basing Mr. Peña's sentence
on the possibility of additional sentences for uncharged or
acquitted conduct: “[t]he Court does not view this possibility
as a fact in imposing this sentence, and the Court is expressly
not imposing this sentence as punishment for the carjacking

against Luna because Pena was acquitted of that charge
and the related charges.” Peña, 2018 WL 6003538, at *15.
Because there was no plain procedural error, we need not
address the remaining elements of plain error review.
3

Mr. Peña also asserts that an amendment to
§
924(c) applied at the time of his resentencing,
which prevented the 25-year consecutive sentences
from applying to his conduct. However, he is
mistaken as to the timing of this amendment.
When Mr. Peña was resentenced in November
2018, if a defendant was convicted of using a
firearm to commit two crimes of violence as part
of two separate crime sprees charged together in
an indictment, a mandatory minimum of 25 years
for the second offense was applicable. See
18
U.S.C. § 924(c)(1)(C)(i) (2018) (amended 2018).
As part of the First Step Act of 2018, Congress
amended the provision in December 2018, shortly
after Mr. Peña's resentencing, so that the mandatory
25-year consecutive sentence only applies where
the second

§ 924(c) conviction occurs after the

first
§ 924(c) conviction “has become final.”
Pub. L. No. 115-391, § 403(a), 132 Stat. 5194,
5221–22 (2018) (codified at
(1)(C)(i)).

18 U.S.C. § 924(c)

III.
SUBSTANTIVE REASONABLENESS
[8] [9] [10] [11] Mr. Peña also challenges his sentence as
substantively unreasonable. We review this issue for abuse of
discretion. Gall v. United States, 552 U.S. 38, 51, 128 S.Ct.
586, 169 L.Ed.2d 445 (2007) (“Regardless of whether the
sentence imposed is inside or outside the Guidelines range,
the appellate court must review the sentence under an abuseof-discretion standard.”). Applying this standard, we give
“substantial deference” to the district court and will only
overturn a sentence that is “arbitrary, capricious, whimsical,
or manifestly unreasonable.”
United States v. Sayad, 589
F.3d 1110, 1116 (10th Cir. 2009) (citation omitted). As Mr.
Peña notes, we should not just provide a rubber stamp of
approval to the lower court's sentence.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

United States v.

8

United States v. Peña, 963 F.3d 1016 (2020)

Pinson, 542 F.3d 822, 836 (10th Cir. 2008). We “therefore
must determine if the district court's proffered rationale, on
aggregate, justifies the magnitude of the sentence.”
837.

Id. at

[12] “Substantive reasonableness involves whether the
length of the sentence is reasonable given all the
circumstances of the case in light of the factors set forth
in
18 U.S.C. § 3553(a).”
United States v. Conlan,
500 F.3d 1167, 1169 (10th Cir. 2007). Mr. Peña raises
seven arguments for substantive unreasonableness: (1) the
district court's mischaracterization of the offense conduct,
(2) Mr. Peña's post-conviction conduct in prison, (3) the
sentencing disparity with Mr. Peña's co-defendant, (4) the
court's punishment for exercising the right to trial, (5) the
court's statement that Mr. Peña received a “windfall” from the
court's dismissal of a federal carjacking charge, (6) Mr. Peña's
age and reduced risk of recidivism, and (7) the extent of the
court's upward variance from the applicable guidelines range.
We address each of Mr. Peña's arguments in turn.
*1025 A. Mischaracterization of the Offense Conduct
[13] Mr. Peña maintains that the district court
overemphasized the seriousness of his conduct in the Lacey
incident, the drive-by shooting, and the Luna incident. First,
Mr. Peña contends his conduct during the Lacey incident
was not as egregious as his co-defendant's conduct because
Mr. Peña pointed his gun only at Mr. Lacey while his codefendant, Mr. Conde, pointed his gun at the pregnant Ms.
Lacey and one of the Laceys’ children. Next, Mr. Peña asserts
that the district court mischaracterized his conduct during the
drive-by shooting as shooting at people, contending instead
that he responded to incoming fire by shooting over the roof
of the car. Mr. Peña insists he intended only to scare them,
not to hurt anyone. Finally, Mr. Peña argues the public danger
during the Luna vehicle theft was not extreme because he only
pointed his gun at Mr. Luna in an empty church parking lot
and did not actually shoot the gun.

[the court's] evaluation unless it finds no support in the record,
deviates from the appropriate legal standard, or follows from
a plainly implausible, irrational, or erroneous reading of the
record.”

Tanberg v. Sholtis, 401 F.3d 1151, 1160 (10th Cir.

2005) (citing United States v. Robinson, 39 F.3d 1115, 1116
(10th Cir. 1994)).
Here, the district court carefully considered the facts
surrounding Mr. Peña's conduct. While the court found that
Mr. Peña did not point his gun at Ms. Lacey or her children,
Mr. Peña “initiated the entry into the home by pointing his
handgun at Arthur Lacey in a threatening manner.” Peña,
2018 WL 6003538, at *6. The court concluded that Mr. Peña's
brandishing of firearms “in the presence of the children and
the pregnant wife makes [his] conduct highly dangerous and
reckless” and “implicates completely innocent victims.” Id.
The court also acknowledged that during the drive-by
shooting incident Mr. Conde was shot before Mr. Peña and
Mr. Conde returned fire. However, the court concluded that
“no one can dispute the serious and potentially dangerous
threat to innocent life [posed] by Pena's conduct of putting his
arm out the window of the passenger side and shooting over
the roof of the vehicle.” Id. The court also determined that
Mr. Peña's conduct in the Luna incident “placed any number
of innocent bystanders in danger” because churches “attract
high numbers of vulnerable populations, including children,
the disabled, and the elderly.” Id. Even though no churchgoers
were present in the parking lot at the time, the district court
still determined that there was a high “potential [for] harmful
consequences.” Id. Although Mr. Peña insists that he never
intended to hurt anyone and did not actually injure anyone
during these offenses, these facts, even if true, do not make
the sentence substantively unreasonable.

B. Mr. Peña's Post-Conviction Conduct in Prison
[16] Mr. Peña asserts that the district court failed to
adequately consider all relevant information regarding his
post-conviction conduct. He claims the court overemphasized
[14] [15] While Mr. Peña may disagree with the district his weapons violations and failed to consider the impact on
court as to the dangerousness of his conduct, this does not
recidivism of the *1026 programs and classes Mr. Peña
make his sentence substantively unreasonable. The district
completed. We are not persuaded.
court has the role of factfinder at sentencing and “we defer
to the trial court's judgment because of its first-hand ability
Agent Reshay Childress, a senior intelligence analyst for
to view the witness or evidence and assess credibility and
the Bureau of Prisons who worked at the United States
Prison at Beaumont (“USP Beaumont”), testified at Mr.
probative value.”
Moothart v. Bell, 21 F.3d 1499, 1504
Peña's resentencing. He explained the four classifications for
(10th Cir. 1994) (citation omitted). “We will not challenge
inmate offenses, 100 series offenses being the most dangerous
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Peña, 963 F.3d 1016 (2020)

and 400 series offenses being the least. At the time of the
resentencing hearing, Mr. Peña had been subject to eight
disciplinary actions while incarcerated at USP Beaumont,
including five Number 104 violations for possessing a
dangerous weapon. His other three violations were for
fighting with another person (Number 201), refusing to obey
an order (Number 307), and possessing an unauthorized item
(Number 305). Based on some of these violations, Mr. Peña
was transferred to a Special Management Unit (“SMU”), a
segregated housing unit designed to increase supervision of
inmates and ensure safety. As a part of the SMU program, Mr.
Peña took vocational and educational classes.
Mr. Peña completed the SMU program in sixteen months
and returned to the general population at USP Beaumont.
After completing the SMU program, Mr. Peña received two
of his five Number 104 weapons violations. Both incidents
involved possession of knives. After the second incident
another inmate requested protective custody, expressing fear
for his life based upon his belief that Mr. Peña intended to stab
him. Prison officials found the inmate's fear to be credible and
recommended his transfer to another facility.
Although the district court did give significant weight to Mr.
Peña's post-conviction conduct, the court also considered the
danger at USP Beaumont as a reason why Mr. Peña might
have a weapon and acknowledged Mr. Peña's participation in
vocational and academic classes. After weighing the evidence
in the record, the district court concluded that Mr. Peña
“is determined to possess dangerous weapons and he will
continue to defy the law to do so.” Peña, 2018 WL 6003538,
at *12. Moreover, the court was not persuaded by the fact
that Mr. Peña has not yet hurt anyone because his “history
and characteristics reveal that he is completely capable of
causing harm to innocent members of society.” Id. The court
emphasized the need to protect the public from Mr. Peña.
While Mr. Peña may disagree with the district court as to the
weight of his post-conviction conduct on his sentence, the
district court did not abuse its discretion.
C. Sentencing Disparity with Mr. Peña's Co-Defendant
[17]
[18]
[19] Mr. Peña points to the sentencing
disparity with his co-defendant, Mr. Conde, as evidence
of the substantive unreasonableness of his sentence. In
assessing a sentence, “[a] district court may consider
sentencing disparities between co-defendants, but the purpose
of the Guidelines is not to eliminate disparities among
co-defendants, but rather to eliminate disparities among
sentences nationwide.” United States v. Zapata, 546 F.3d

1179, 1194 (10th Cir. 2008) (internal citation omitted).
Moreover, “[ 18 U.S.C.] § 3553(a)(6)’s consideration of
unwarranted sentence disparities is but one factor that a
district court must balance against the other

§ 3553(a)

factors in arriving at an appropriate sentence.”
United
States v. Martinez, 610 F.3d 1216, 1228 (10th Cir. 2010).
Here, the district court correctly considered any sentencing
disparity between “similarly situated defendants,” as required
by
18 U.S.C. § 3553(a)(6). Peña, 2018 WL 6003538, at
*14–15. Although Mr. Conde received a sentence of only
36 months, he had cooperated with the government, entered
into a plea agreement, testified against Mr. Peña, accepted
responsibility, and demonstrated a commitment *1027 to
reforming his behavior. He was also sentenced from a
much lower guidelines range, 70–87 months, than Mr. Peña.
Given the vast differences in the circumstances related to
Mr. Conde's sentence, the disparity between his and Mr.
Peña's sentences is not sufficiently compelling to demonstrate
substantive unreasonableness.
D. Exercising the Right to Trial
[20] Mr. Peña also contends the district court punished
him for going to trial, asserting that he “implicitly accepted
responsibility” for his conduct. Aplt. Br. at 17. Mr. Peña
claims he acknowledged his conduct in the Luna incident and
exercised his right to trial only to challenge the government's
position that his conduct violated the statute. Mr. Peña
believes he should have received a reduction in his sentence
based on acceptance of responsibility.
We have only approved of acceptance of responsibility
adjustments after a trial where the defendant “admitted
to all the conduct with which he was charged” but went
to trial to preserve issues unrelated to factual guilt. See,
e.g.,
United States v. Gauvin, 173 F.3d 798, 806 (10th
Cir. 1999) (affirming the application of the acceptance of
responsibility guideline where the defendant only contested
the legal element of intent); see also
U.S.S.G. § 3E1.1
application notes cmt.2 (“This adjustment is not intended to
apply to a defendant who puts the government to its burden
of proof at trial by denying the essential factual elements of
guilt, is convicted, and only then admits guilt ....”). Mr. Peña
is correct that his decision to go to trial was not frivolous
because the district court found that one of the carjacking
charges did not meet the elements under federal law and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Peña, 963 F.3d 1016 (2020)

dismissed the charge. But Mr. Peña went to trial on all counts
of the indictment; he did not stipulate to any elements for
any of the counts. Accordingly, the district court did not
abuse its discretion in finding that Mr. Peña did not accept
responsibility for his conduct. Nothing else in the court's
opinion suggests a penalty for Mr. Peña exercising his right
to trial.
E. “Windfall” for the Dismissal of a Carjacking Charge
[21] Mr. Peña next takes issue with the district court's
reasoning that he received a benefit from the
Johnson
decision and a “windfall” from the dismissal of one count
of carjacking for his conduct in the Luna incident. Mr. Peña
argues that a defendant does not receive a windfall when the
law is correctly applied. This argument disregards the context
in which the district court discussed a “windfall.”
While considering the need to avoid unwarranted sentencing
disparities as required by

18 U.S.C. § 3553(a)(6), the

district court noted that “[t]he ruling under
Johnson
significantly reduced Pena's exposure at resentencing, as
it has for certain defendants nationwide.” Peña, 2018 WL
6003538, at *15. The court then concluded that “any potential
nationwide sentence disparity is not unwarranted in this case
when the Court considers ‘similar conduct’ for which other
similarly situated defendants have been found guilty.” Id.
The “similar conduct” the district court referred to included
Mr. Peña's actions in the drive-by shooting and the Luna
incident. The court noted that Mr. Peña was not prosecuted
in state court for his conduct in those incidents pursuant
to N.M. Stat. § 30-3-8 (shooting at a dwelling or occupied
building, or shooting at or from a motor vehicle) and N.M.
Stat. § 30-16D-1 (unlawful taking of a vehicle or motor
vehicle). 4 Because Mr. Luna was not close *1028 enough
to his truck for the theft of it to constitute carjacking, Mr. Peña
was acquitted of that crime as well as conspiracy to commit
carjacking and using and carrying a firearm during and in
relation to a crime of violence. See United States v. Brown,
200 F.3d 700, 705 (10th Cir. 1999) (carjacking requires that a
victim be “sufficiently near to the vehicle for it to be within
reach, inspection, or control, and absent threat or intimidation,
to be able to maintain control of it.”) (citation omitted). It was
for this reason that the district court said “a windfall ... results
for Pena from [the court]’s finding that Luna, who had run
across the church parking lot out of fear of being shot, was not

close enough to the vehicle for the theft of it to satisfy the legal
definition of carjacking.” Peña, 2018 WL 6003538, at *15.
4

The Supreme Court has recently confirmed that
the dual sovereignty doctrine, which allows for
prosecution by the state and the United States for
the same conduct, does not violate double jeopardy.
See Gamble v. United States, ––– U.S. ––––, 139
S.Ct. 1960, 1964, 204 L.Ed.2d 322 (2019).

Significantly, the district court clarified that it did not consider
the additional offenses for the drive-by and the Luna incidents
when it imposed Mr. Peña's sentence. It only mentioned Mr.
Peña's acquitted conduct for the purpose of comparing him
to other similarly situated defendants. See United States v.
Todd, 515 F.3d 1128, 1137 (10th Cir. 2008) (“The Supreme
Court and this circuit have both expressly held that acquitted
conduct can be considered for purposes of sentencing.”)
(citing
United States v. Watts, 519 U.S. 148, 154, 117
S.Ct. 633, 136 L.Ed.2d 554 (1997) (per curiam)). Given
this context, the court's statement that Mr. Peña received a
“windfall” does not make Mr. Peña's sentence substantively
unreasonable.
F. Mr. Peña's Age and Risk of Recidivism
[22] At resentencing, Mr. Peña cited a 2004 study by the
Sentencing Commission observing that “[r]ecidivism rates
decline relatively consistently as age increases.” U.S.S.C.,
Measuring Recidivism: The Criminal History Computation
of the Federal Sentencing Guidelines 12, 28 (May 2004).
He argues on appeal that his sentence is substantively
unreasonable because the district court discounted his age
(33 at the time of resentencing) as well as the fact that even
under a within-guidelines sentence he would be less likely to
recidivate by the time he was released. He also cites a 2017
study concluding that “[o]lder offenders were substantially
less likely than younger offenders to recidivate following
release.” U.S.S.C., The Effects of Aging on Recidivism Among
Federal Offenders 3 (Dec. 2017).
The district court addressed the 2004 study cited by Mr. Peña
by discussing the same 2017 study, which the government
cited below. Significantly, the study found that the recidivism
rate increases among older federal offenders where the
offender committed crimes involving firearms. Id. at 25. The
court was “persuaded by the 2017 Study that [the sentence
imposed was] sufficient, but not greater than necessary to
significantly reduce the likelihood of recidivism” because

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Peña, 963 F.3d 1016 (2020)

Mr. Peña's “actions and post-conviction conduct ... show a
lack of effort on Pena's part to even attempt to reform his
behavior.” Peña, 2018 WL 6003538, at *14. Thus, the district
court specifically considered Mr. Peña's age at the time of
resentencing and disagreed as to his likelihood of recidivism.

increased uniformity of sentencing.”

Id. at 564 (quoting

United States v. Booker, 543 U.S. 220, 246, 125 S.Ct. 738,
160 L.Ed.2d 621 (2005)). Mr. Peña argues the district court
broke the connection between his conduct and his sentence.

[26] We are not persuaded. We agree with the district court
G. Extent of the Upward Variance from the Applicable
that the cases are useful in providing “guidance in how to
Guidelines Range
satisfy the Tenth Circuit review of procedural and substantive
[23] [24] [25] Finally, Mr. Peña argues that the sentence's reasonableness,” but the cases do not restrict a district court's
upward variance from the applicable guidelines range is
ability to impose an upward sentence only where specific
substantively unreasonable. “If [the district court] decides
facts are present. Peña, 2018 WL 6003538, at *18. The
*1029 that an outside-Guidelines sentence is warranted, [the
reasoning of
Pinson,
Gantt, and Worku support the
court] must consider the extent of the deviation and ensure
court's decision to impose an upward variance. In all three
that the justification is sufficiently compelling to support the
cases, the district courts pointed to the defendant's history of
degree of the variance.”
Gall, 552 U.S. at 50, 128 S.Ct.
violent or criminal conduct when reasoning that an above586. On review, we must “give due deference to the district
guidelines sentence was required. Pinson, 542 F.3d at 837;
court's decision that the
§ 3553(a) factors, on a whole,
Gantt, 679 F.3d at 1250–51; Worku, 800 F.3d at 1207–
justify the extent of the variance.” Id. at 51, 128 S.Ct. 586.
08. In two of the cases, the danger the defendant posed
to the public was also emphasized as part of the court's
Mr. Peña attempts to distinguish the three cases the district
justification for imposing an upward variance. Pinson, 542
court relied on in supporting the upward variance, cases where
F.3d at 837; Gantt, 679 F.3d at 1250–51. The district court
this court upheld large upward variances as substantively
here similarly explained that it “placed great weight on the
reasonable.
Pinson, 542 F.3d at 836 (affirming a 135determination that Pena's offense conduct and his history and
month upward variance);
United States v. Gantt, 679 F.3d
characteristics support this upward variance,” emphasizing
1240, 1250–51 (10th Cir. 2012) (concluding that a 156in particular that Peña brandished his firearm during the
month upward variance was reasonable); and United States
carjacking and “also brandished or used a firearm during
v. Worku, 800 F.3d 1195, 1208 (10th Cir. 2015) (determining
the Luna vehicle theft and during the drive-by shooting,
an upward variance of 31 offense levels was substantively
both of which threatened public safety with death or serious
reasonable). Mr. Peña argues that he has no prior convictions
bodily harm.” Peña, 2018 WL 6003538, at *19. The court
for injuring someone and therefore he should not receive a
determined accordingly that a within-guidelines sentence
harsher sentence than defendants with “much more egregious
would not “satisfy the sentencing goals of
§ 3553(a)
histories.” Aplt. Br. at 23.
(2), particularly in protecting the public and deterring future
criminal conduct.” Id.
Mr. Peña also cites a Fourth Circuit case to support his
argument that the variance from the guidelines range is so
The decision here stands in contrast to the Fourth Circuit's
extreme as to be substantively unreasonable. See
United
decision in
Tucker, where “the district court offered
States v. Tucker, 473 F.3d 556 (4th Cir. 2007). In
Tucker,
no compelling *1030 justification for why a 144 month
the Fourth Circuit determined that a 144-month sentence
sentence was necessary to protect society.”
473 F.3d at
for one count of bank fraud was substantively unreasonable
564. Here the district court offered significant explanation for
because “the district court did not provide compelling reasons
the sentence imposed and determined that a within-guidelines
to justify the extent of the variance” and the circumstances
sentence would be “woefully inadequate to accomplish the
of the case did not warrant the extreme variance.
Id. at
goals of sentencing.” Peña, 2018 WL 6003538, at *5.
557. The Fourth Circuit explained the need to “maintain[ ]
a strong connection between the sentence imposed and
Although the variance from the guidelines here is large, the
the offender's real conduct—a connection important to the
district court addressed each of the
§ 3553(a) factors,
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Peña, 963 F.3d 1016 (2020)

provided compelling reasons for the upward variance, and
thereby maintained the connection between Mr. Peña's
conduct and the sentence imposed. Given the district court's
detailed explanation of Mr. Peña's sentence, he cannot meet
his burden of showing the sentence is arbitrary, whimsical, or
substantively unreasonable.
End of Document

For the foregoing reasons, we AFFIRM.
All Citations
963 F.3d 1016
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

